March 23, 2007

MEGAN BRENNAN
VICE PRESIDENT, EASTERN AREA OPERATIONS

SUBJECT: Audit Report – Surface Transportation – Processing and Distribution
         Center Transportation Routes – Eastern Area
         (Report Number NL-AR-07-002)

This report presents results from our processing and distribution center (P&DC)
transportation routes audit (Project Number 06XG012NL002). Our objectives were to
evaluate the effectiveness of P&DC routes and identify opportunities to save money.
This report responds to a request from the Vice President, Network Operations, and
focuses on routes controlled by the Eastern Area.

The U.S. Postal Service could save $2,330,769 over the term of existing Eastern Area
P&DC highway contracts by canceling, not renewing, or modifying 78 trips. These are
funds put to better use and will be reported as such in our Semiannual Report to
Congress. The Postal Service could eliminate or modify the trips without negatively
affecting service because trip volume was low and mail could be consolidated on other
trips. We recommended the Vice President, Eastern Area Operations verify the actual
cancellation, modification, or substitution of the 46 trips identified by Postal Service
managers and the 32 trips identified by the U.S. Postal Service Office of Inspector
General (OIG).

Management generally agreed with our finding, recommendations and monetary impact.
They stated that 66 of the 78 trip reductions or substituted reductions have been
completed, and that they will provide us with documentation when the remaining 12 trip
reductions have been completed. Management’s comments and our evaluation of
these comments are included in the report.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Joe Oliva,
Director, Transportation, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    Don Spatola
    Katherine Banks
    Lynn Forness
    Deborah A. Kendall
Surface Transportation – Processing and Distribution Center                         NL-AR-07-002
 Transportation Routes – Eastern Area


                                        INTRODUCTION
 Background                     Processing and distribution centers (P&DCs) are central
                                facilities that receive and process mail and then distribute it
                                to local service areas over the U.S. Postal Service’s
                                transportation network. The mail P&DCs process, including
                                First-Class Mail® and Periodicals, is very time-sensitive. As
                                a result, Postal Service transportation managers often must
                                move it from origin to destination overnight and, in making
                                transportation decisions, continually balance on-time service
                                standards with transportation costs. There are
                                approximately 270 P&DCs in the Postal Service network
                                and the Postal Service spends about $1.5 billion annually
                                on surface transportation contracts moving mail to and from
                                these facilities.




       Dock doors at the
  Philadelphia P&DC, labeled
   with destination locations
     and departure times,
      September 20, 2006.




                                The Vice President, Network Operations, requested we
                                audit the scheduled contracted transportation routes
                                supporting P&DCs. Individual Postal Service areas control
                                those routes. This report focuses on routes the Eastern
                                Area controls and responds to this request.

 Objectives, Scope,             The objectives of our audit were to evaluate the
 and Methodology                effectiveness of the scheduled contracted transportation
                                routes supporting P&DCs and to identify opportunities to
                                save money.

                                Using Postal Service computer-generated data, we
                                identified 9,760 trips operated under 1,050 Eastern Area



                                                    1
Surface Transportation – Processing and Distribution Center                       NL-AR-07-002
 Transportation Routes – Eastern Area


                                contracts that had at least one P&DC service point. We did
                                not audit or comprehensively validate the data; however, we
                                noted several data quality weaknesses that constrained our
                                work. For example, some computer files had missing
                                records and inaccurate trailer load volumes. Even though
                                data limitations constrained our work, we were able to
                                support our audit conclusions by applying alternate audit
                                procedures, including source document examination,
                                observation, physical inspection, and discussion with
                                appropriate officials.

                                During our work, we audited 23 facilities, visited four
                                facilities, interviewed officials at headquarters and in the
                                Eastern Area, reviewed relevant Postal Service policies and
                                procedures, interviewed managers and employees, and
                                observed and photographed operations. We also evaluated
                                mail volume and the type of mail carried, considered
                                on-time service standards and area initiatives to improve
                                service, and analyzed all 9,760 trips.

                                We conducted work associated with this report from
                                August 2006 through March 2007 in accordance with
                                generally accepted government auditing standards and
                                included such tests of internal controls as we considered
                                necessary under the circumstances. We discussed our
                                observations and conclusions with management officials
                                throughout our audit and included their comments where
                                appropriate.

 Prior Audit Coverage           Since September 2002, the U.S. Postal Service Office of
                                Inspector General (OIG) has worked with the Postal Service
                                to reduce surface transportation. As a result, we have
                                issued 30 audit reports that identified potential savings
                                exceeding $99.1 million over the life of eliminated or
                                reduced transportation contracts. For more detailed
                                information about these audits. (See Appendix A.)




                                                    2
Surface Transportation – Processing and Distribution Center                              NL-AR-07-002
 Transportation Routes – Eastern Area


                                        AUDIT RESULTS
 Contracted Highway             The Postal Service could improve the effectiveness of
 Transportation Trips           scheduled surface contract routes supporting P&DCs and
                                save $2,330,769 million over the term of existing Eastern
                                Area highway contracts by canceling, not renewing, or
                                modifying 78 trips. The Postal Service could eliminate or
                                modify the trips without negatively affecting on-time service
                                because trip mail volume was low and mail could be
                                consolidated on other trips. As indicated below, 23 percent
                                of affected trips expire on June 30, 2007. The other
                                77 percent expire in 2008 or later and have 1 to 3 years
                                remaining.

                                          PROPOSED NONRENEWALS AND CANCELLATIONS
                                                              AFFECTED       NUMBER     ESTIMATED
                                    TRIP CATEGORY               TRIPS        OF TRIPS    SAVINGS

                                 Contracts expiring on
                                 June 30, 2007                  23 percent         18     $396,328


                                 Contracts expiring in
                                 2008 or later                  77 percent         60     1,934,441

                                 All terminated trips          100 percent         78    $2,330,769




     Philadelphia P&DC,
     September 20, 2006.




                                The Postal Service transportation network is dynamic and
                                requirements constantly change. As we discussed in the
                                objectives, scope, and methodology section of our report
                                Postal Service data has certain limitations. Accordingly,
                                throughout our audit we coordinated extensively with plant
                                and area transportation officials and proposed service
                                reductions to them. The officials then reviewed each
                                proposal in conjunction with their own assessment of




                                                        3
Surface Transportation – Processing and Distribution Center                             NL-AR-07-002
 Transportation Routes – Eastern Area


                                area wide network requirements and we discussed our
                                proposals with them. Based on these discussions, we
                                believe the Postal Service could attain savings through
                                service reductions by:

                                    •    Not renewing unnecessary trips scheduled to expire
                                         on June 30, 2007.

                                    •    Canceling unnecessary trips currently contracted to
                                         expire in 2008 or later, which have 1 to 3 years
                                         remaining.

                                The savings we identified included savings from
                                nonrenewable trips, plus savings from trip cancellations net
                                of cancellation fees totaling approximately $72,372.

                                            PROPOSED CANCELLATIONS AND MODIFICATIONS
                                                                  NUMBER                ESTIMATED
                                 CANCELLATION CATEGORY            OF TRIPS   APPENDIX    SAVINGS
                                 Postal Service identified trip
                                 cancellations or
                                                                    46          B        $986,630
                                 modifications during the
                                 audit


                                 Proposals with which area
                                                                    32          C        1,344,139
                                 officials agreed


                                 Total                              78                  $2,330,769


                                On February 12, 2007, we met with Eastern Area officials
                                and discussed our report and recommendations. At that
                                meeting, the officials agreed with our recommendations and
                                with the 78 trip proposals in Appendices B and C.

 Recommendations                We recommend the Vice President, Eastern Area
                                Operations:

                                    1. Verify the actual cancellation, modification, or
                                       substitution of the 46 trips management identified
                                       during our audit.

                                    2. Verify the actual cancellation, modification, or
                                       substitution of the 32 trips with which Postal Service
                                       managers agreed and provide the dates action was
                                       taken.




                                                     4
Surface Transportation – Processing and Distribution Center                      NL-AR-07-002
 Transportation Routes – Eastern Area




 Management’s                   Management generally agreed with all of our
 Comments                       recommendations. They stated they had already modified
                                or eliminated all of the 46 trips in recommendation 1;
                                completed 20 of the 32 trip reductions in recommendation 2;
                                and anticipated that the 12 remaining trip reductions in
                                recommendation 2 would be completed this month.
                                Management’s comments, in their entirety, are included in
                                Appendix D.

 Evaluation of                  Management’s comments are responsive to the finding and
 Management’s                   recommendations. Management’s actions taken or planned
 Comments                       should correct the issues identified in the finding.




                                                    5
Surface Transportation – Processing and Distribution Center                                                                                      NL-AR-07-002
 Transportation Routes – Eastern Area




                                                                       APPENDIX A

                                                              PRIOR AUDIT COVERAGE


                                                                                         Number of Trips                  Trips With    Trips With
                                                                        Date Final        Identified for   Potential        Which         Which          Trips
                                                           Report        Report           Elimination or    Savings      Management    Management     Identified by
                    Report Name                           Number         Issued            Modification    Identified      Agreed       Disagreed     Management
Highway Network Scheduling - Pacific Area               TD-AR-02-003    9/24/2002              158          $4,500,417         76            34              48
Highway Network Scheduling - Northeast Area             TD-AR-03-002    11/25/2002             18             776,992         10             8                  0
Highway Network Scheduling - Capital Metro Area         TD-AR-03-007    3/28/2003              34           1,144,218         20            14                  0
Highway Network Scheduling - New York Metro Area        TD-AR-03-008    3/31/2003              32             470,123         12            20                  0
Highway Network Scheduling - Southwest Area             TD-AR-03-010    7/11/2003             249           5,989,082        148           101                  0
Highway Network Scheduling - Western Area               TD-AR-03-013    9/23/2003              70           2,721,530         30            40               0
Highway Network Scheduling - Southeast Area             TD-AR-03-014    9/26/2003             101          11,352,881         23            24              54
Highway Network Scheduling - Eastern Area               TD-AR-03-015    9/30/2003             181          10,577,367        128            53               0
Highway Network Scheduling - Great Lakes Area           NL-AR-04-003    3/29/2004              72           5,352,877         48            22               2
BMC Transportation Routes - Great Lakes Area            NL-AR-04-004    9/29/2004              96           7,660,533         49             7              40
BMC Transportation Routes - Eastern Area                NL-AR-05-003    3/17/2005              35           4,791,570         29             6               0
Intermodal Rail and Highway Transportation - Pacific    NL-AR-05-004    3/18/2005               0           1,046,240          0             0               0
 Area
BMC Transportation Routes - Southeast Area              NL-AR-05-005    3/18/2005              52           6,563,582         52             0                  0
BMC Transportation Routes - New York Metro              NL-AR-05-007     6/9/2005              16           1,499,371         16             0                  0
BMC Transportation Routes - Southwest Area              NL-AR-05-008     8/3/2005              79           7,175,912         76             0                  3
BMC Transportation Routes - Capital Metro Area          NL-AR-05-009    9/2/2005               10             803,060         10             0                  0
Intermodal Rail and Highway Transportation Between      NL-AR-05-011    9/19/2005               0           1,261,308          0             0                  0
 the Pacific and Southeast Areas
BMC Transportation Routes - Pacific Area                NL-AR-05-012    9/21/2005              22           3,123,562         10             2              10
BMC Transportation Routes - Northeast Area              NL-AR-05-013    9/26/2005              41           2,491,133         15             0              26
MTESC Network - Highway Transportation Routes           NL-AR-05-014    9/28/2005              49           1,025,812         17            32               0
New York Metro Area
BMC Transportation Routes - Western Area                NL-AR-06-001    2/14/2006              77           2,235,812         50             2              25




                                                                                     6
Surface Transportation – Processing and Distribution Center                                                                                     NL-AR-07-002
 Transportation Routes – Eastern Area




                                                                                        Number of Trips                  Trips With    Trips With
                                                                       Date Final        Identified for   Potential        Which         Which          Trips
                                                           Report       Report           Elimination or    Savings      Management    Management     Identified by
                    Report Name                           Number        Issued            Modification    Identified      Agreed       Disagreed     Management
Intermodal Rail and Highway Transportation Between      NL-AR-06-002   3/10/2006                 2          1,942,841          2             0               0
 the Western and Great Lakes Areas
MTESC Network - Highway Transportation Routes           NL-AR-06-003   3/28/2006              77            1,091,640        31            25              21
San Francisco
BMC Transportation Routes - Summary Report              NL-AR-06-004   3/28/2006               0                   0          0             0                  0
MTESC Network - Highway Transportation Routes           NL-AR-06-005   3/28/2006              25             699,397          0            25                  0
Memphis
P&DC Transportation Routes - Great Lakes Area           NL-AR-06-008   7/25/2006             107            5,289,849        73            14              20
MTESC Network - Highway Transportation Routes           NL-AR-06-009   8/18/2006              90              801,097        43             0              47
Atlanta
MTESC Network - Highway Transportation Routes           NL-AR-06-010   9/18/2006              73            1,607,510        41            11              21
Greensboro
P&DC Transportation Routes - Pacific Area               NL-AR-06-011   9/21/2006              84            3,650,035        42            12              30
MTESC Network - Highway Transportation Routes           NL-AR-06-012   9/28/2006              66            1,476,981        63             0                  3
Dallas
                                           Totals                 30                        1,916         $99,122,732     1,114           452             350

BMC − Bulk Mail Center
MTESC − Mail Transport Equipment Service Center
P&DC − Processing and Distribution Center




                                                                                    7
Surface Transportation – Processing and Distribution Center                                                                                   NL-AR-07-002
 Transportation Routes – Eastern Area




                                                                             APPENDIX B

                                            TRIPS IDENTIFIED BY POSTAL SERVICE MANAGERS
                                                          DURING AUDIT WORK

         Effective               Highway
          Date of     Ending     Contract                                                                Annual      Estimated
           Last       Date of     Route       Trip                                   Origin to           Budget       Contract    Indemnity    Estimated
         Change      Contract    Number      Number     Recommendation              Destination           Cost         Cost         Fees        Savings
         9/1/2006    6/30/2010     15990        n/a     Negotiated service     Johnstown, PA P&DF, to      $15,111      $50,370          $0      $50,370
                                                        on entire contract     Pittsburgh, PA BMC and
                                                                               return
         10/1/2006   6/30/2009     19731        n/a     Negotiated service     Delaware P&DC to             78,125      182,291          0        182,291
                                                        on entire contract     Winterthur (Contract
                                                                               Station), DE and return
        10/14/2006   6/30/2007     24765        n/a     Negotiated service     Bluefield, WV to Kroger      19,119       76,474          0         76,474
                                                        on entire contract     Station, WV and return

         9/30/2006   6/30/2008     45312       1-4      Termination of         Springfield, OH to           61,577       82,103          0         82,103
                                                        contract               Cincinnati, OH BMC and
                                                                               return
         6/1/2006    6/30/2007     191FD        n/a     Negotiated service     Philadelphia, PA P&DC        10,724       42,898       1,787       41,110*
                                                        on entire contract     to Northern, MA HASP
                                                                               and return
         4/16/2005   6/30/2006     192U0       1-8      Eliminate contract    Philadelphia, PA BMC to       50,261      201,044          0        201,044
                                                                              West Chester, PA,
                                                                              Dowington, PA and
                                                                              return
         6/1/2006    6/30/2007     250M8        n/a     Negotiated service    Charleston, WV P&DC to         5,745       22,979          0         22,979
                                                        on entire contract    Charleston, WV PO and
                                                                              return
         7/28/2006   6/30/2009     440L2       1-2      Canceled service       Cleveland, OH P&DC to        45,000      105,000          0        105,000
                                                                               Great Lakes Data, OH
                                                                               and return




                                                                                    8
Surface Transportation – Processing and Distribution Center                                                                                    NL-AR-07-002
 Transportation Routes – Eastern Area




         Effective               Highway
          Date of     Ending     Contract                                                                 Annual      Estimated
           Last       Date of     Route        Trip                                   Origin to           Budget       Contract    Indemnity    Estimated
         Change      Contract    Number       Number       Recommendation            Destination           Cost         Cost         Fees        Savings
         8/27/2006   6/30/2009     453BD       1 - 20      Termination of       Dayton, OH THS to            73,450      171,383           0      171,383
                                                           contract             Dayton, OH P&DC and
                                                                                Dayton, OH AMF and
                                                                                return
         7/1/2006    6/30/2010     453L4        n/a        Negotiated service   Dayton, OH P&DC to           16,163       53,875          0         53,875
                                                           on entire contract   Eldorado, OH and return
                                   Totals             46                                                  $375,274*    $988,418*      $1,787     $986,630*

P&DC − Processing and Distribution Center
P&DF − Processing and Distribution Facility
BMC − Bulk Mail Center
HASP − Hub and Spoke Program
PO − Post Office
AMF − Air Mail Facility
THS − Terminal Handling Service

* Minor rounding difference




                                                                                     9
Surface Transportation – Processing and Distribution Center                                                                              NL-AR-07-002
 Highway Transportation Routes – Eastern Area




                                                                          APPENDIX C

                                           TRIPS IDENTIFIED DURING AUDIT WORK WITH WHICH
                                                  POSTAL SERVICE MANAGERS AGREED

         Effective               Highway
          Date of     Ending     Contract                                                           Annual     Estimated
           Last       Date of     Route        Trip                              Origin to          Budget      Contract    Indemnity    Estimated
         Change      Contract    Number      Number      Recommendation         Destination          Cost        Cost          Fees       Savings
          7/1/2006   6/30/2008     18636        25       Eliminate trip     Kingston Branch, PA       $6,480       $8,641           $0       $8,641
                                                                            to Dallas, PA
          7/1/2006   6/30/2008     18636        26       Eliminate trip     Dallas, PA to Wilkes-      8,486       11,315           0        11,315
                                                                            Barre, PA P&DF
          7/1/2006   6/30/2010     19439         1       Eliminate trip     Southeastern, PA             963        3,210         321         2,889
                                                                            P&DC to King of
                                                                            Prussia (Retail), PA
          7/1/2006   6/30/2010     19439         2       Eliminate trip     King of Prussia            1,047        3,489         349         3,140
                                                                            (Retail), PA to
                                                                            Southeastern, PA
                                                                            P&DC
          7/1/2006   6/30/2010     19439         3       Eliminate trip     Southeastern, PA           5,666       18,886       1,889       16,998*
                                                                            P&DC to King of
                                                                            Prussia (Retail), PA
          7/1/2006   6/30/2010     19439         4       Eliminate trip     King of Prussia            6,147       20,490       2,049        18,441
                                                                            (Retail), PA to
                                                                            Southeastern, PA
                                                                            P&DC
          7/1/2006   6/30/2010     19439         5       Eliminate trip     Southeastern, PA           5,655       18,851       1,885        16,966
                                                                            P&DC to King of
                                                                            Prussia (Retail), PA
          7/1/2006   6/30/2010     19439         6       Eliminate trip     King of Prussia            6,147       20,490       2,049        18,441
                                                                            (Retail), PA to
                                                                            Southeastern, PA
                                                                            P&DC
          1/1/2006   6/30/2009     19448        25       Eliminate trip     Southeastern, PA             821        1,917         274         1,643
                                                                            P&DC to Paoli, PA
          1/1/2006   6/30/2009     19448        26       Eliminate trip     Paoli, PA to                 804        1,877         268         1,609
                                                                            Southeastern, PA
                                                                            P&DC


                                                                                10
Surface Transportation – Processing and Distribution Center                                                                                   NL-AR-07-002
 Highway Transportation Routes – Eastern Area


         Effective               Highway
          Date of     Ending     Contract                                                                Annual     Estimated
           Last       Date of     Route        Trip                                   Origin to          Budget      Contract    Indemnity    Estimated
         Change      Contract    Number      Number      Recommendation              Destination          Cost        Cost          Fees       Savings
          1/1/2006   6/30/2009     19448        27       Eliminate trip          Southeastern, PA           1,112        2,595          371       2,225*
                                                                                 P&DC to Malvern, PA
          1/1/2006   6/30/2009     19448        28       Eliminate trip          Malvern, PA to             1,112        2,595         371        2,225*
                                                                                 Southeastern, PA
                                                                                 P&DC
          7/1/2006   6/30/2010     19492        805      Eliminate trip          Southeastern, PA          19,925       66,416       6,642       59,775*
                                                                                 P&DC to Philadelphia,
                                                                                 PA BMC
          7/1/2006   6/30/2010     19492        806      Eliminate trip          Philadelphia, PA BMC      19,925       66,416       6,642       59,775*
                                                                                 to Southeastern, PA
                                                                                 P&DC
          7/1/2006   6/30/2010     19718         1       Eliminate trip          Delaware P&DC to          24,239       80,797           0        80,797
                                                                                 Philadelphia, PA
                                                                                 P&DC
          7/1/2006   6/30/2010     19718         2       Eliminate trip          Philadelphia, PA          24,239       80,797           0        80,797
                                                                                 P&DC to Delaware
                                                                                 P&DC
          7/1/2006   6/30/2010     43037         4       Eliminate trip on all   Washington, OH to         18,562       61,872       6,187        55,685
                                                         days except             Columbus, OH P&DC
                                                         Mondays
          7/1/2006   6/30/2010     43037         7       Eliminate trip on all   Columbus, OH P&DC         14,512       48,373       4,837        43,536
                                                         days except             to Washington, OH
                                                         Mondays
          1/2/2006   6/30/2008     44028        15       Eliminate trip          Cleveland, OH P&DC        18,858       25,144       1,756        23,388
                                                                                 to Akron, OH P&DC
          1/2/2006   6/30/2008     44028        16       Eliminate trip          Akron, OH P&DC to         18,858       25,144       1,756        23,388
                                                                                 Cleveland, OH P&DC
         5/17/2005   6/30/2008     44813         1       Eliminate trip on       Mansfield, OH to           5,829        7,772         971        6,800*
                                                         Saturdays               Cleveland, OH P&DC
         5/17/2005   6/30/2008     44813         2       Eliminate trip on       Cleveland, OH P&DC         5,829        7,772         971        6,800*
                                                         Saturdays               to Mansfield, OH
         3/18/2006   6/30/2007     45034         5       Eliminate trip on       Cincinnati, OH P&DC        4,670       18,682           0        18,682
                                                         Sundays                 (Bldg B) to Feesburg,
                                                                                 OH
         3/18/2006   6/30/2007     45034         8       Eliminate trip on       Feesburg, OH to            4,273       17,092           0        17,092
                                                         Sundays                 Cincinnati, OH P&DC
                                                                                 (Bldg B)



                                                                                     11
Surface Transportation – Processing and Distribution Center                                                                                  NL-AR-07-002
 Highway Transportation Routes – Eastern Area


         Effective               Highway
          Date of     Ending     Contract                                                              Annual      Estimated
           Last       Date of     Route         Trip                                Origin to          Budget       Contract     Indemnity   Estimated
         Change      Contract    Number       Number       Recommendation          Destination          Cost         Cost           Fees      Savings
         3/18/2006   6/30/2007     45050         3         Eliminate trip      Cincinnati, OH P&DC,       2,368         9,474            0        9,474
                                                                               (Bldg B) to Harrison,
                                                                               OH
         3/18/2006   6/30/2007     45050         4         Eliminate trip      Harrison, OH to             2,368        9,474           0         9,474
                                                                               Cincinnati, OH P&DC,
                                                                               (Bldg B)
         10/1/2005   6/30/2008     152Y1       1503        Eliminate trip,     Pittsburgh, PA L&DC       92,989       123,985       15,498      108,487
                                                           Thursdays through   to Philadelphia, PA
                                                           Sundays             P&DC
         10/1/2005   6/30/2008     152Y1       1504        Eliminate trip,     Philadelphia, PA          92,989       123,985       15,498      108,487
                                                           Thursdays through   P&DC to Pittsburgh,
                                                           Sundays             PA L&DC
          6/1/2006   6/30/2008     190L3        601        Eliminate trip      Philadelphia, PA         194,449       259,266           0       259,266
                                                                               L&DC to Charlotte,
                                                                               NC P&DC
          6/1/2006   6/30/2008     190L3        602        Eliminate trip      Charlotte, NC P&DC       194,413       259,217           0       259,217
                                                                               to Philadelphia, PA
                                                                               L&DC,
          7/1/2006   6/30/2010     442M6        11         Eliminate trip      Akron, OH P&DC to           1,303        4,345           0         4,345
                                                                               Kent, OH
          7/1/2006   6/30/2010     442M6        12         Eliminate trip      Kent, OH to Akron,          1,303        4,345           0         4,345
                                                                               OH P&DC
                                   Totals             32                                               $806,344*   $1,414,723*     $70,584   $1,344,139*


P&DC − Processing and Distribution Center
P&DF − Processing and Distribution Facility
BMC − Bulk Mail Center
L&DC − Logistics and Distribution Center

* Minor rounding difference




                                                                                   12
Surface Transportation – Processing and Distribution Center   NL-AR-07-002
 Highway Transportation Routes – Eastern Area


               APPENDIX D. MANAGEMENT’S COMMENTS




                                               13
        Surface Transportation – Processing and Distribution Center                                                                    NL-AR-07-002
         Highway Transportation Routes – Eastern Area



MANAGEMENT’S ATTACHMENT A

                                                                                                                                 DIFFERENCE

                                                                                                        CHANGE     CHANGE                        CHANGE
                                                                                                BDG       TO         TO          CHANGE TO         TO
               ORIGIN           DESTINATING        BEGIN        END                   FINANCE   ACC     ANNUAL     ANNUAL         ANNUAL         ANNUAL          ACTUAL
HCRID        TERMINUS            TERMINUS          DATE         DATE       SEG           NO      NO     HOURS       MILES          RATE           UNITS        INDEMNITY
          JOHNSTOWN          PITTSBURGH BMC,
15990     P&DF, PA           PA                    1-Jul-06   30-Jun-10     1         41-6607   53127     (511)     (10,473.8)    ($15,111.12)    (10,473.8)        $0.00
          PHILADELPHIA       NORTHERN HASP,
191FD     P&DC, PA           MA                   15-Nov-03   30-Jun-07     1         67-0194   53618     (361)      (4,883.3)    ($10,724.39)     (4,883.3)    $1,787.40
          DELAWARE
19731     P&DC, DE           YORKLYN, DE           1-Jul-05   30-Jun-09     1         09-6821   53601    (2,226)    (31,627.9)    ($78,124.73)    (31,627.9)        $0.00
24765     BLUEFIELD, WV      PRINCETON, WV         1-Jul-03   30-Jun-07     1         55-1456   53601      (848)     (7,495.5)    ($13,115.69)     (7,495.5)        $0.00
          CHARLESTON         CHARLESTON -
250M8     P&DC, WV           STATE HOUSE, WV      1-Nov-03    30-Jun-07     1         55-1459   53605     (436)      (3,095.8)     ($5,744.70)     (3,095.8)        $0.00
          CLEVELAND          GREAT LAKES
440L2     P&DC, OH           DATA, OH              1-Jul-05    28-Jul-06    1         38-1670   53601     (898)     (23,710.6)    ($45,000.00)    (23,710.6)        $0.00
                             CINCINNATI BMC
45312     SPRINGFIELD, OH    OH                    1-Jul-04   30-Sep-06     1         38-2094   53127    (2,270)    (59,017.1)    ($61,577.34)    (59,017.1)    $9,500.00
453BD     DAYTON THS, OH     DAYTON THS, OH        1-Jul-06   27-Aug-06     1         38-2096   53601      (613)    (11,700.0)    ($20,250.00)       (450.0)        $0.00
453BD     DAYTON THS, OH     DAYTON THS, OH        1-Jul-06   27-Aug-06     2         38-2096   53601    (1,692)     (2,800.0)    ($53,200.00)     (1,400.0)        $0.00
          DAYTON P&DC,
453L4     OH                 ELDORADO, OH          1-Jul-06   30-Jun-10     1         38-2094   53601     (376)     (16,558.8)    ($16,162.57)    (16,558.8)        $0.00
          PHILADELPHIA
192U0     BMC, PA            DOWNINGTOWN, PA      19-Oct-02   30-Jun-06     1         41-1627   53127    (1,437)    (38,793.9)    ($50,261.00)    (38,793.9)        $0.00
Total                                                                                                   (11,668)   (210,156.7)   ($369,271.54)   (197,506.7)   $11,287.40




                                                                                 14
    Surface Transportation – Processing and Distribution Center                                                                   NL-AR-07-002
     Highway Transportation Routes – Eastern Area




MANAGEMENT'S ATTACHMENT B

                                                                                                                             DIFFERENCE

                                                                                                   CHANGE     CHANGE                        CHANGE
                                                                                           BDG       TO         TO          CHANGE TO         TO
             ORIGIN         DESTINATING        BEGIN        END                  FINANCE   ACC     ANNUAL     ANNUAL         ANNUAL         ANNUAL          ACTUAL
HCRID      TERMINUS          TERMINUS          DATE         DATE      SEG           NO      NO     HOURS       MILES          RATE           UNITS        INDEMNITY
        PITTSBURGH       PHILADELPHIA
152Y1   L&DC, PA         L&DC, NJ             19-Apr-05   30-Jun-08    2         67-0194   53131    (3,722)   (166,698.0)   ($125,057.96)   (166,698.0)       $0.00
        WILKES-BARRE
18636   P&DF, PA         PITTSTON, PA          1-Jul-04   30-Jun-08    1         41-9261   53601     (205)      (1,307.6)     ($5,487.12)     (1,307.6)       $0.00
        PHILADELPHIA     CHARLOTTE P&DC,
190EU   P&DC, PA         NC                    1-Jul-06   27-Oct-06    1         67-0194   53621         0            0.0   ($445,135.38)           0.0       $0.00
        SOUTHEASTERN     PHILADELPHIA
19492   P&DC, PA         BMC, PA               1-Jul-06   30-Jun-10    1         41-6545   53127     (766)     (15,583.0)    ($35,755.82)    (15,583.0)       $0.00
        DELAWARE         PHILADELPHIA
19718   P&DC, DE         P&DC, PA              1-Jul-06   30-Jun-10    1         09-6821   53614    (1,488)    (19,038.4)    ($40,949.91)    (19,038.4)       $0.00
        CLEVELAND
44028   P&DC, OH         CANTON P&DC, OH       1-Jul-04   30-Jun-08    1         38-1670   53614     (673)     (23,167.2)    ($21,072.73)    (23,167.2)    $3,512.12
442M6   AKRON P&DC, OH   RAVENNA, OH          30-Sep-06   30-Jun-10    1         38-0085   53601       (56)     (2,372.9)     ($1,738.48)     (2,372.9)       $0.00
        CINCINNATI
        P&DC (BLDG B),
45034   OH               DECATUR, OH           1-Jul-03   30-Jun-07    1         38-1605   53601       (50)     (3,382.4)     ($1,603.73)     (3,382.4)       $0.00
        CINCINNATI
        P&DC (BLDG B),
45050   OH               HARRISON, OH          1-Jul-03   30-Jun-07    1         38-1605   53601       (55)     (1,366.6)     ($1,523.24)     (1,366.6)       $0.00
        COLUMBUS         WASHINGTON CH,
43037   P&DC, OH         OH                    1-Jul-06   30-Jun-10    1         38-1793   53601      (852)    (31,905.0)    ($18,183.66)    (31,905.0)        $0.00
Total                                                                                               (7,867)   (264,821.1)   ($696,508.03)   (264,821.1)    $3,512.12




                                                                            15
